0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Deborah
Katz Pueschel v. Elaine Chao, Secretary of Labor, was
sent via Two Day Service to the U.S. Supreme Court,
and 3 copies were sent via Two Day Service and e-mail
to the following parties listed below, this 10th day of
September, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
George M. Chuzi
Counsel of Record
Kalijarvi, Chuzi, Newman & Fitch, P.C.
818 Connecticut Avenue, N.W.
Suite 1000
Washington, DC 20006
(202) 331-9264
gch uzi@kcnlaw.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
. Suite l 02
Cincinnati, Oh io 45249

Franklin Square

1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 10, 2020.

Donna J . Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date :

$.~

0
cfr~
/J. ~

Notary Public
[seal]

tO ~

'

